r
No.

IN THESUPREME COURT OF THE UNITED STATES
PETITIONER

Deverick Scott # 131042
Vs.

RESPONDENT(S)

Wendy Kelley, et al
PROOF OF SERVICE

>/A

I,, do swear or declare that on this date,

, 2020 , as required

by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

M c£
lyOiY/iF

/4/A

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

, 20

/s/
(Signature)
17

I

